     DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                         Office of Audit Services, Region IV
                                                                         61 Forsyth Street, SW, Suite 3T41
                                                                         Atlanta, GA 30303

June 4, 2010

Report Number: A-04-09-00055

Mr. Michael G. Snyder
Assistant Vice President Financial Services
Carolinas HealthCare System
P.O. Box 32861
Charlotte, NC 28232-2861

Dear Mr. Snyder:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part A Bad Debts at Carolinas Medical
Center for the Fiscal Year Ended December 31, 2005. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-09-00055 in all correspondence.

                                                    Sincerely,



                                                    /Peter J. Barbera/
                                                    Regional Inspector General
                                                      for Audit Services


Enclosure
Page 2 – Mr. Michael G. Snyder


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health & Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





 REVIEW OF MEDICARE PART A BAD 

  DEBTS AT CAROLINAS MEDICAL 

CENTER FOR THE FISCAL YEAR ENDED 

       DECEMBER 31, 2005





                        Daniel R. Levinson

                         Inspector General 


                            June 2010 

                          A-04-09-00055 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers the Medicare program and provides
Federal oversight of State Medicaid programs for every State in the nation. CMS contracts with
Medicare fiscal intermediaries and administrative contractors to, among other things, process and
pay claims submitted by Medicare providers. Fiscal intermediaries and Medicare administrative
contractor responsibilities include determining reimbursement amounts, conducting reviews and
audits, and safeguarding against fraud and abuse. Fiscal intermediaries and Medicare
administrative contractors use the Medicare cost report for final settlement of Medicare
reimbursement due to or from providers.

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries share in
defraying the costs of inpatient care through various deductibles and coinsurance amounts. This
policy was adopted in 1966 when Medicare reimbursed hospitals retrospectively under
reasonable cost principles. Beginning in 1983, inpatient hospital care was reimbursed under a
prospective payment system (PPS). Under Medicare’s PPS, bad debts (defined below) are pass-
through costs and continue to be reimbursed under reasonable cost principles. Hospitals claim
reimbursement for these bad debts on their annual Medicare cost reports.

Medicare bad debts are amounts considered to be uncollectible from accounts and notes
receivable that were created or acquired in providing services for Medicare patients. The
Medicare program reimburses hospitals for bad debts associated with uncollectible Medicare
deductible and coinsurance amounts if the bad debts meet Medicare reimbursement criteria.
Federal regulations (42 CFR § 413.89(e)) provide that, to be eligible for reimbursement, the
hospital must show that: (1) the bad debts are related to Medicare covered services and derived
from unpaid deductible and coinsurance amounts, (2) reasonable collection efforts were made,
(3) the debts were actually uncollectible when claimed as worthless, and (4) sound business
judgment established there was no likelihood of recovery at any time in the future. Furthermore,
Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce their bad debts by the
amount that they recover from previously written off bad debts. Because Federal regulations
(42 CFR § 413.89(h)) reduced reimbursement for Medicare bad debts by 30 percent in fiscal year
(FY) 2005, Medicare reimbursed 70 percent of the bad debts claimed.

The Carolinas Medical Center (CMC) is an 874-bed acute care hospital located in Charlotte,
North Carolina. CMC includes a Level I trauma center, a research institute and a large number
of specialty treatment units. On its hospital cost report for January 1, 2005, through December
31, 2005, CMC claimed $3,110,097 ($2,177,068 reimbursement) for Medicare inpatient bad
debts (bad debts).




                                                i
OBJECTIVE

Our objective was to determine whether bad debts claimed on CMC’s FY 2005 hospital cost
report were allowable under Medicare regulations and were reduced by bad debt recoveries.

SUMMARY OF FINDINGS

CMC properly reported 72 out of 109 bad debts in our sample on its FY 2005 hospital cost
report. However, the remaining 37 bad debts in our sample were not allowable under Medicare
regulations, nor were CMC’s bad debts always reduced by bad debt recoveries. Specifically,
CMC claimed 37 unallowable bad debts totaling $39,877 as follows:

   	   31 bad debts totaling $36,669 were for accounts that were still with a collection agency
        when written off and, therefore, did not meet the definition of uncollectible when claimed
        as worthless;

   	   5 bad debts totaling $2,958 were not subjected to reasonable collection efforts; and

   	   1 bad debt totaling $250 was for non-covered services (not derived from unpaid 

        deductible and coinsurance amounts). 


CMC generally claimed unallowable bad debts because its policies and procedures required
accounts to be written off at the time they were referred to a collection agency. Additionally, in
some cases CMC’s in-house collection efforts were inadequate.

Based on our statistical sample results, we estimated that CMC claimed $1,032,338 for bad debts
that were not reimbursable under Medicare regulations. Of this amount, $1,003,043 related to
bad debts that were with a collection agency. A CMS memorandum dated May 2, 2008, entitled
Clarification of Medicare Bad Debt Policy/Bad Debt Policy Related to Accounts at a Collection
Agency, states that Medicare contractors are required to disallow Medicare bad debts for
accounts at a collection agency. This same memorandum instructed Medicare contractors not to
reopen cost reports to disallow such bad debts prior to May 2, 2008. Therefore, we are not
recommending a $1,003,043 reduction to the bad debt total claimed by CMC on its cost report or
a refund of the $702,130 in related reimbursement. The remaining balance of $29,295 was
unallowable for other reasons specifically related to CMC’s actions and should be adjusted on
CMC’s cost report.

Finally, CMC’s bad debts were not always reduced by bad debt recoveries. We identified 11
accounts with $650 in bad debt recoveries that were not reported on the cost report. CMC did
not have adequate procedures in place to accurately report all Medicare bad debt recoveries.




                                                 ii
RECOMMENDATIONS

We recommend that CMC:

      request its fiscal intermediary reopen its 2005 hospital cost report to reduce Medicare bad
       debts by $29,295 and refund $20,507 in related overpayments,

      request its fiscal intermediary reopen its 2005 hospital cost report to reduce Medicare bad
       debts by $650 for unreported recoveries and refund $455 in related overpayments,

      review its previously submitted FY 2008 cost report and ensure compliance with CMS’s
       bad debt policy,

      ensure that cost reports submitted in the future comply with CMS’s bad debt policy, and

      improve its policies and procedures to ensure that it properly accounts for and reports all
       Medicare bad debt recoveries.

CAROLINAS MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, CMC agreed with most of our findings and
recommendations but believed that some of the wording in our report was “inaccurate and/or
misleading.”

After reviewing CMC’s comments, we maintain that our findings and recommendations are
valid. We also maintain that the wording of our report is accurate and truthful.




                                                iii
                                                  TABLE OF CONTENTS


                                                                                                                                      Page


INTRODUCTION..........................................................................................................................1 


          BACKGROUND .................................................................................................................1 

              Medicare Fiscal Intermediaries and Administrative Contractors ............................1 

              Medicare Bad Debt Policy .......................................................................................1 

              Carolinas Medical Center ........................................................................................2                  


          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2 

               Objective ..................................................................................................................2 

               Scope .......................................................................................................................2 

               Methodology ...........................................................................................................2           


FINDINGS AND RECOMMENDATIONS ................................................................................3 


          BAD DEBTS NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS .............4 


          REASONABLE COLLECTION EFFORTS NOT MADE .................................................4 


          NON-COVERED SERVICES CLAIMED..........................................................................5 


          MEDICARE BAD DEBT RECOVERIES NOT ALWAYS REPORTED .........................5 


          CONCLUSION ....................................................................................................................6 


          RECOMMENDATIONS .....................................................................................................6                  


          CAROLINAS MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR 

          GENERAL RESPONSE......................................................................................................7 


APPENDIXES

          A – SAMPLING METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES FOR BAD DEBTS THAT WERE NOT
               UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS

          C – SAMPLE RESULTS AND ESTIMATES FOR UNALLOWABLE BAD DEBTS
               RELATED TO CAROLINAS MEDICAL CENTER’S ACTIONS

          D – CAROLINAS MEDICAL CENTER COMMENTS




                                                                    iv
                                             INTRODUCTION 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers the Medicare program and provides
Federal oversight of State Medicaid programs for every State in the nation.

Medicare Fiscal Intermediaries and Administrative Contractors

CMS contracts with Medicare fiscal intermediaries1 and administrative contractors to, among
other things, process and pay claims submitted by Medicare providers. Fiscal intermediaries
and Medicare administrative contractor responsibilities include determining reimbursement
amounts, conducting reviews and audits, and safeguarding against fraud and abuse. Fiscal
intermediaries and Medicare administrative contractors use the Medicare cost report for final
settlement of Medicare reimbursement due to or from providers.

Medicare Bad Debt Policy

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries share
in defraying the costs of inpatient care through various deductibles and coinsurance amounts.
This policy was adopted in 1966 when Medicare reimbursed hospitals retrospectively under
reasonable cost principles. Beginning in 1983, inpatient hospital care was reimbursed under a
prospective payment system (PPS). Under Medicare’s PPS, bad debts (defined below) are
pass-through costs and continue to be reimbursed under reasonable cost principles. Hospitals
claim reimbursement for these bad debts on their annual Medicare cost reports.

Medicare bad debts are amounts considered to be uncollectible from accounts and notes
receivable that were created or acquired in providing services for Medicare patients. The
Medicare program reimburses hospitals for bad debts associated with uncollectible Medicare
deductible and coinsurance amounts if the bad debts meet Medicare reimbursement criteria.
Federal regulations (42 CFR § 413.89(e)) provide that, to be eligible for reimbursement, the
hospital must show that: (1) the bad debts are related to Medicare covered services and
derived from unpaid deductible and coinsurance amounts, (2) reasonable collection efforts
were made, (3) the debts were actually uncollectible when claimed as worthless, and
(4) sound business judgment established there was no likelihood of recovery at any time in the
future. Furthermore, Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce
their bad debts by the amount that they recover from previously written off bad debts.
Because Federal regulations (42 CFR § 413.89(h)) reduced reimbursement for Medicare bad
debts by 30 percent in fiscal year (FY) 2005, Medicare reimbursed 70 percent of the bad debts
claimed.

1
 Effective October 1, 2005, Congress amended the Social Security Act to require that CMS contract with
Medicare administrative contractors instead of fiscal intermediaries (Part A) and carriers (Part B) by October
2011. Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173 § 911,
Social Security Act, §§ 1816 and 1842, 42 U.S.C. §§ 1395h, 1395u and 1395kk-1.



                                                        1

Carolinas Medical Center

The Carolinas Medical Center (CMC) is an 874-bed acute care hospital located in Charlotte,
North Carolina. CMC includes a Level I trauma center, a research institute and a large
number of specialty treatment units. On its hospital cost report for January 1, 2005, through
December 31, 2005, CMC claimed $3,110,097 ($2,177,068 reimbursement) for Medicare
inpatient bad debts (bad debts).2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether bad debts claimed on CMC’s FY 2005 hospital cost
report were allowable under Medicare regulations and were reduced by bad debt recoveries.

Scope

Our review was limited to $3,174,518 in bad debts reported on the bad debt listing supporting
CMC’s FY 2005 hospital cost report.3 We reviewed a sample of 100 bad debts ranging
between $50 and $5,999 totaling $86,816 and separately reviewed all 9 bad debts valued at
$6,000 or more and totaling $101,186. We also reviewed the accuracy and completeness of
bad debt recoveries reported by CMC during FY 2005.

We limited our review of CMC’s internal controls to those controls applicable to CMC’s
managing and reporting of its bad debts.

We conducted our fieldwork from November 2008 through August 2009 at CMC in
Charlotte, North Carolina.

Methodology

To accomplish our objective, we:

       reviewed applicable Medicare laws, regulations, and guidance;

       held discussions with CMS officials regarding Medicare bad debt program guidance;

       evaluated CMC policies and procedures regarding the collection of deductibles and
        coinsurance amounts;


2
  On its hospital cost report, CMC claimed $3,110,097 in Medicare bad debts, which equaled the $3,175,175 per
its bad debt listing reduced by $65,078 debts in bad debt recoveries.
3
  As explained in Appendix A, our sampling frame of $3,174,518 equaled $3,175,175 minus 22 bad debts
totaling $657 that were less than $50.


                                                      2

   	 obtained a list of bad debts claimed in FYs 2004 and 2005;

   	 verified that CMC claimed no duplicate bad debts on its FY 2005 cost report;

   	 conducted a stratified sample of bad debts as noted in Appendix A;

   	 validated the population of FY 2005 bad debt write offs;

   	 reviewed the patient accounting financial records, Medicare remittance documents,
      Medicaid remittance documents, and collection activity records for the 109 bad debts
      selected in the sample;

   	 used the Office of Inspector General, Office of Audit Services (OIG/OAS) statistical
      software to estimate the number and dollar value of unallowable bad debts for
      accounts that were with a collection agency when claimed as worthless (Appendix B);

   	 used the OIG/OAS statistical software to estimate the number and dollar value of
      unallowable bad debts related to CMC’s actions (Appendix C);

   	 reviewed the collection agencies’ contracts and bad debt invoices for FY 2005; and

   	 reviewed financial records for bad debt recoveries to determine the accuracy and
      completeness of bad debt recovery amounts used to reduce bad debts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

CMC properly reported 72 out of 109 bad debts in our sample on its FY 2005 hospital cost
report. However, the remaining 37 bad debts in our sample were not allowable under
Medicare regulations, nor were CMC’s bad debts always reduced by bad debt recoveries.
Specifically, CMC claimed 37 unallowable bad debts totaling $39,877 as follows:

   	   31 bad debts totaling $36,669 were for accounts that were still with a collection
        agency when written off and, therefore, did not meet the definition of uncollectible
        when claimed as worthless;

   	   5 bad debts totaling $2,958 were not subjected to reasonable collection efforts; and

   	   1 bad debt totaling $250 was for non-covered services (not derived from unpaid
        deductible and coinsurance amounts).



                                               3

CMC generally claimed unallowable bad debts because its policies and procedures required
accounts to be written off at the time they were referred to a collection agency. Additionally,
in some cases CMC’s in-house collection efforts were inadequate.

Finally, CMC did not always reduce its bad debts by bad debt recoveries. We identified 11
accounts with $650 in bad debt recoveries that were not reported on the cost report. CMC did
not have adequate procedures in place to accurately report all Medicare bad debt recoveries.

BAD DEBTS NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS

Federal regulations (42 CFR § 413.89(e)(3)) require that a bad debt be “actually uncollectible
when claimed as worthless.” Moreover, Federal regulations (42 CFR § 413.89(e)(4)) require
that there be “no likelihood of recovery at any time in the future.” Accordingly, a May 2,
2008, CMS Joint Signature Memorandum (JSM), entitled Clarification of Medicare Bad Debt
Policy/Bad Debt Policy Related to Accounts at a Collection Agency, states that Medicare
contractors are required to disallow Medicare bad debts for accounts at a collection agency.

The memorandum states that it has been CMS’s longstanding policy that when an account is
in collection, a provider cannot have determined the debt to be uncollectible and cannot have
established that there is no likelihood of recovery under the regulations. That is, until a
provider’s reasonable collection effort has been completed, a Medicare bad debt may not be
deemed as uncollectible. According to CMS, the collection policy supporting the regulation
applies to a provider’s entire collection effort, both in-house and by use of a collection
agency.

Contrary to these regulations, we identified 31 unallowable bad debts totaling $36,669 for
accounts that were still with a collection agency when written off. These bad debts did not
meet the definition of “uncollectible” when claimed as worthless because they could still have
been recovered in the future.

REASONABLE COLLECTION EFFORTS NOT MADE

Federal regulations (42 CFR § 413.89(e)(2)) state that, for a bad debt to be allowable, “[t]he
provider must be able to establish that reasonable collection efforts were made.” In addition,
the Provider Reimbursement Manual (CMS, Provider Reimbursement Manual (PRM), Pub.
No. 15-1, chapter 3, § 310.2) states that “[i]f after reasonable and customary attempts to
collect a bill, the debt remains unpaid more than 120 days from the date the first bill is mailed
to the beneficiary, the debt may be deemed uncollectible.”

One bad debt totaling $437 was written off as uncollectible prior to the required 120 day
period. There was no documentation, however, establishing that this account was
uncollectible to justify the cessation of collection attempts prior to 120 days of collection
efforts.

The PRM (Pub. No. 15-1, chapter 3, § 312) provides that a hospital may deem a bad debt to
be uncollectable and forego the collection efforts required by § 310 if the patient is
determined by the hospital to be indigent. The patient’s file should “contain documentation of


                                                4

the method by which indigence was determined in addition to all backup information to
substantiate the determination.”

One bad debt totaling $876 was considered uncollectable by CMC on the basis of patient
indigency. Consequently, CMC made no collection efforts on this bad debt. However, CMC
did not document the basis for considering this patient indigent. For example, CMC did not
document a determination that there was no source other than the patient that would be legally
responsible for the patient’s medical bill, such as title XIX or a local welfare agency.

Federal regulations (42 CFR § 413.89(e)(2)) state that, for a bad debt to be allowable, “[t]he
provider must be able to establish that reasonable collection efforts were made.” In addition,
Federal regulations (42 CFR §§ 413.89(e)(3) and (4)) require that a bad debt actually be
uncollectible when claimed as worthless and that sound business judgment established no
likelihood of recovery at any time in the future.

Three bad debts totaling $1,645 pertained to patients who were making payments to CMC
when CMC wrote off the accounts and abandoned all efforts to collect the remaining balances
simply because 120 days had passed since the date of the first bill was mailed to the
beneficiary. Writing off accounts on which patients are making payments does not constitute
reasonable collection efforts. Moreover, CMC wrote off these accounts without establishing
that the bad debt was uncollectible when claimed as worthless and had no likelihood of
recovery at any time in the future.

NON-COVERED SERVICES CLAIMED

Federal regulations (42 CFR § 413.89(e)(1)) state that for a bad debt to be allowable, it must
be related to covered services and derived from deductible and coinsurance amounts. One
bad debt totaling $250 was not derived from Medicare deductible and coinsurance amounts.

MEDICARE BAD DEBT RECOVERIES NOT ALWAYS REPORTED

According to Federal regulations (42 CFR § 413.89(f)), the amounts uncollectible from
specific beneficiaries are to be charged off as bad debts in the accounting period in which the
accounts are deemed to be worthless. In some cases, an amount previously written off as a
bad debt and allocated to the Medicare program may be recovered in a subsequent accounting
period; in such cases, the income from the Medicare recoveries must be used to reduce the
cost of beneficiary services for the period in which the collection is made.

Contrary to these guidelines, CMC’s records and records of its collection agency showed that
11 accounts with $650 in bad debt recoveries were not reported on the cost report as a
reduction to bad debts. CMC did not have adequate procedures in place to accurately report
all Medicare bad debt recoveries. In some instances, CMC was unable to match the account
payments to the applicable patient financial records.




                                               5

CONCLUSION

Our sample review identified 31 unallowable bad debts totaling $36,669 for accounts that
were still with a collection agency when written off. Based on our sample results, we
estimated that CMC claimed 1,072 such bad debts on its FY 2005 cost report, representing
$1,003,043 in bad debts, and received $702,130 in related reimbursement. The May 2, 2008,
JSM, however, stated that Medicare contractors whose practice had been since August 1,
1987, to allow hospitals to claim as bad debts accounts at a collection agency should not
reopen cost reports to disallow bad debts that were improperly paid for this reason prior to
May 2, 2008.4 Therefore, we are not recommending a $1,003,043 reduction to the bad debt
total claimed by CMC on its FY 2005 cost report or a refund of the $702,130 in related
reimbursement. (See Appendix B for details on our sample results and estimates.)

Our sample review also identified 6 bad debts totaling $3,208 that were unallowable for other
reasons specifically related to CMC’s actions. Based on these results, we estimated that CMC
claimed 96 such bad debts on its FY 2005 cost report, representing $29,295 in bad debts, and
received $20,507 in related reimbursement. (See Appendix C for details on our sample
results and estimates.)

Additionally, CMC’s improper reporting of its bad debt recoveries resulted in a $650
overstatement of bad debts claimed and excess reimbursement of $455.

RECOMMENDATIONS

We recommend that CMC:

    	 request its fiscal intermediary reopen its 2005 hospital cost report to reduce Medicare
       bad debts by $29,295 and refund $20,507 in related overpayments,

    	 request its fiscal intermediary reopen its 2005 hospital cost report to reduce Medicare
       bad debts by $650 for unreported recoveries and refund $455 in related overpayments,

    	 review its previously submitted FY 2008 cost report and ensure compliance with
       CMS’s bad debt policy,

    	 ensure that cost reports submitted in the future comply with CMS’s bad debt policy,
       and

    	 improve its policies and procedures to ensure that it properly accounts for and reports
       all Medicare bad debt recoveries.




4
 In 1987 the FI for North Carolina allowed bad debt write-offs at the time patient accounts were sent to a
collection agency. This practice was continued by subsequent Medicare contractors in North Carolina until May
2, 2008.


                                                      6

CAROLINAS MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, CMC agreed with most of our findings and
recommendations but believed that some of the wording in our report was “inaccurate and/or
misleading.”

After reviewing CMC’s comments, we maintain that our findings and recommendations are
valid. We also maintain that the wording of our report is accurate and truthful.




                                             7

APPENDIXES

                                                                                     Page 1 of 2


                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare Part A bad debts that were claimed on Carolinas Medical
Center’s FY 2005 hospital cost report.

SAMPLING FRAME

Carolinas Medical Center provided a single Excel file supporting Part A and Part B Medicare
bad debts claimed on its 2005 cost report. This file included four worksheets, two each for
Part A and Part B. One Medicare Part A bad debt worksheet represented crossover bad debts,
and the other Medicare Part A bad debt worksheet represented non-crossover bad debts. We
combined these two Medicare Part A bad debt worksheets to create a single Medicare Part A bad
debt worksheet comprised of 3,601 bad debts totaling $3,175,175. We sorted the Part A bad
debts from highest to lowest dollars claimed, and separated the 3,601 Medicare Part A bad debts
(bad debts) as follows:

      9 bad debts totaling $101,186 that were $6,000 or greater,

      3,570 bad debts totaling $3,073,331 that were $50 or greater but less than $6,000, and

      22 bad debts totaling $657 that were less than $50.

To avoid extreme variations in bad debts within our frame, we excluded the 22 bad debts totaling
$657 that were less than $50. We then created a new excel file containing 3,579 bad debts $50 or
greater totaling $3,174,518. This file was our sampling frame.

SAMPLE UNIT

The sample unit was a Medicare Part A bad debt.

SAMPLE DESIGN

We used a stratified sample. The sampling frame was divided into two strata based on dollar
value. Stratum 1 consisted of bad debts $50 or greater but less than $6,000. Stratum 2 consisted
of all bad debts $6,000 or greater.

SAMPLE SIZE

We randomly selected 100 bad debts $50 or greater but less than $6,000. We reviewed all 9 bad
debts that were $6,000 or greater. The total sample size was 109.
                                                                                      Page 2 of 2


SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the OIG/OAS statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We selected all bad debts that were $6,000 or greater for review. We consecutively numbered
the bad debts that were $50 or greater but less than $6,000 from 1 through 3,570. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the number and dollar value of
unallowable bad debts claimed during fiscal year 2005.
      APPENDIX B: SAMPLE RESULTS AND ESTIMATES FOR BAD DEBTS THAT
          WERE NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS

  SAMPLE RESULTS

                                                             No. of            Value of
                                        Value of
       Stratum        Sample Size                       Unallowable Bad     Unallowable Bad
                                        Sample
                                                             Debts               Debts


1 - $50 - $5,999          100            $86,816              30                $27,849


2 - ≥ $6,000                9            101,186               1                 8,820


       TOTAL              109           $188,002              31                $36,669



  ESTIMATES

                            Estimated Unallowable Bad Debts
                   Limits Calculated for a 90-Percent Confidence Interval

                                           Estimated         Estimated
                                            Value of           No. of
                                          Unallowable       Unallowable
                                           Bad Debts         Bad Debts
                   Point Estimate
                     Stratum 1              $994,223           1,071
                     Stratum 2                8,820                1
                          Total            $1,003,043          1,072


                   Lower Limit              $672,459               807
                   Upper Limit             $1,315,987          1,367
    APPENDIX C: SAMPLE RESULTS AND ESTIMATES FOR UNALLOWABLE BAD 

        DEBTS RELATED TO CAROLINAS MEDICAL CENTER’S ACTIONS 


  SAMPLE RESULTS


                                                          No. of               Value of
                                        Value of
       Stratum        Sample Size                    Unallowable Bad        Unallowable Bad
                                        Sample
                                                          Debts                  Debts


1 - $50 - $5,999           100           $86,816                6               $3,208


2 - ≥ $6,000                9            101,186                0                 0


TOTAL                      109          $188,002                6               $3,208



  ESTIMATES
                            Estimated Unallowable Bad Debts
                   Limits Calculated for a 90-Percent Confidence Interval

                                       Estimated       Estimated
                                        Value of         No. of
                                      Unallowable     Unallowable
                                       Bad Debts       Bad Debts
                        Point
                                        $114,526            6
                        Estimate
                        Lower limit      $29,295            96
                        Upper limit     $199,756           407
                                                                                                        Page 1 of 3
                              APPENDIX D: CAROLINAS MEDICAL CENTER COMMENTS




                                         Carolinas HealthCare System

          James E.S. Hynes
                 Chairman

Michael C. Tarwater, FACHE
     Chief Executive Offcer

          Joseph G. Piemont
          President & COO
              April 15. 2010

              Mr. Peter J. Barbera
              Regional   Inspector General for Audit Services
              Department of Health & Human Services
              Office of Inspector General
              61 Forsyth Street, SW, Suite 3T41
              Atlanta, GA 30303

              RE:      Hospital:       Carolinas Medical Center
                       Year:            FYE 12/31/2005
                        Report:         A-04-09-0055 Part A Bad Debts

              Dear Mr. Barbera:

              We recently received the U.S. Department of Health & Human Services, Office of Inspector General
              (OIG), draft report entitled Review of Medicare Part A Bad Debts at Carolinas Medical Center for the
              Fiscal Year Ended December 31, 2005. We have reviewed this report and agree with most of the findings
              and recommendations. However, we believe some of the wording is inaccurate and/or misleading. Our
              comments are included below.

              Pg. 3 and Summary: The report includes the following:

              CMC properly reported 72 out of 109 bad debts in our sample on its FY 2005 hospital cost report.
              However, the remaining 37 bad debts in our sample were not allowable under Medicare regulations, nor
              were CMC's bad debts always reduced by bad debt recoveries. Specifically, CMC claimed 37 bad debts
              totaling $39,877 as follows:

                    · 31 bad debts totaling $36,669 were for accaunts that were still with a collection agency when
                       written off and, therefore, did not meet the definition of uncollectible when claimed as
                       worthless.

              As noted in footnote 4 on page 6, "the North Carolina FI allowed bad debt write-offs at the time patient
              accounts were sent to a collection agency. This practice was continued by subsequent Medicare
              contractors in North Carolina until May 2, 2008". We believe this footnote needs to be prevalently
              included as part of this discussion and the summary. CMC policies and procedures were consistent with




                                                P.O. Box 32861 · Charlotte, NC 28232-2861
                                                                                                        Page 2 of 3




interpretations  provided by
interpretations provided  by the NCNC Medicare
                                       Medicare contractor
                                                  contractor that allowed
                                                                  allowed bad
                                                                           bad debts sent to aa collection
                                                                                                 collection
agency and
agency  andtherefore,
             therefore, met their definition ofuncollectible
                                  definition of uncollectiblewhen
                                                             whenclaimed
                                                                   claimed as
                                                                           as worthless.

Pg
Pg 4: "CMC generally
   4: "CMC   generally claimed
                        claimed unallowable
                                    unallowable bad
                                                 bad debts
                                                      debts because
                                                             because its
                                                                       its policies
                                                                           policies and
                                                                                    and procedures
                                                                                         procedures required
                                                                                                     required
accounts to be
accounts to be written off at  the time  they were referred to a collection agency."
                       off at the time they were referred to a collection agency. /I

We   request the
We request                    sentence be
             the following sentence       be substituted.
                                              substituted. "CMe's
                                                            "CMe's policy
                                                                     policy required
                                                                            required that
                                                                                      that accounts
                                                                                           accounts bebe written
                                                                                                         written off
at least
   least 120  days after   the first bill was  sent  to the  patient indicating that  a coinsurance   or
         120 days after the first bil was sent to the patient indicating that a coinsurance or deductibledeductible
was due.
was   due. This
           This policy
                policy isis consistent
                            consistent with
                                          with the interpretation
                                                    interpretation and
                                                                    and guidelines
                                                                         guidelines received
                                                                                     received from
                                                                                               f rom the
                                                                                                      the Medicare
                                                                                                          Medicare
contractor."

Pg
Pg 55 and
      and summary:
          summary: "CMe's
                     "CMe's records
                             records and
                                      and records
                                            records of
                                                    of its
                                                       its collection agency showed
                                                           collection agency   showed that      accounts with
                                                                                        that 11 accounts
$650  in bad debt recoveries were  not  reported  on the   cost report as a  reduction to bad  debts.
$650 in bad debt recoveries were not reported on the cost report as a reduction to bad debts. CMC     CMC did
                                                                                                          did
not have adequate procedures in   place  to
                               in place to  accurately  report  all
                                                                all Medicare  bad debt recoveries.
                                                                             bad debt recoveries.  "

The   auditors performed
The auditors   performed a 100%       review of
                               100% review      of recoveries
                                                    recoveries which
                                                                 which included
                                                                           included about 19,000     inpatient and
                                                                                             19,000 inpatient   and
outpatient  recoveries. The
outpatient recoveries.   The auditor
                             auditor found
                                      found 11   errors out
                                              11 errors  out of  19,000 accounts.
                                                             of 19,000      accounts. This
                                                                                      This represents
                                                                                           represents aa .06%  error
                                                                                                          .06% error
                              policies and
rate. We have reviewed our policies     and procedures and believe they are sufficient to ensure recoveries
                                                                                                          recoveries
are accurately
    accurately stated.   We do not
                stated. We      not agree
                                    agree with
                                            with your
                                                 your assumption
                                                       assumption of  of inadequate
                                                                          inadequate procedures
                                                                                       procedures and
                                                                                                   and request the
statement be stricken from the final
                                  final report.
                                         report. We
                                                 We request
                                                      request the
                                                               the following
                                                                    followingreplacement.
                                                                                 replacement. "CMe's
                                                                                               "CMe'srecords
                                                                                                       records and
                                                                                                                and
records
records of its collection agency
                          agency showed
                                   showed that    11 accounts
                                             that 11  accounts out
                                                                 out of   19,000 reviewed
                                                                      of 19,000    reviewed were
                                                                                             were not reported on on
                as aa reduction to bad debts."
the cost report as

Pg
Pg 6: 6: "Our
         /lOur sample
               samplereview
                         reviewidentified   31 unallowable
                                 identified 31 unallowable bad
                                                            bad debts
                                                                debts totaling   $36,669 for
                                                                        totaling $36,669      accounts that were
                                                                                          for accounts       were
still with
still  with a collection
                collection agency
                             agency when    written off
                                     when written       Based on our
                                                    oft Based      our sample
                                                                       sample results,
                                                                                results, we  estimated that
                                                                                         we estimated   thatCMC
                                                                                                             CMC
claimed
claimed 1.072
            1.072 such
                    such bad    debts on its
                           bad debts      its FY2005
                                              FY2005 cost
                                                      cost report,
                                                           report, representing
                                                                    representing $1,003,043
                                                                                  $1,003,043 in       debts, and
                                                                                               in bad debts,
received $702,130 in    in related reimbursement."
                           related reimbursement./I

Again, we
Again, we request
           request that                 include some
                   that this statement include  some qualification that
                                                                   that CMC
                                                                        CMC was
                                                                            was following the Medicare
                                                                                               Medicare
contractor's guidance   and  audit instructions
contractor's guidance and audit instructions at  at that  time. We  recommend   the  following language
                                                         time. We recommend the following language
replace the sentence above.
                     above.

"Our   sample review
"Our sample     review identified
                         identified 31    bad debts
                                     31 bad    debts totaling
                                                      totaling $36,669
                                                                $36,669 for accounts
                                                                               accounts that   remained with aa
                                                                                         that remained
collection
collection agency
            agencywhen
                    when written    off. The
                            written off. The local
                                              local Medicare
                                                     Medicarecontractor
                                                               contractor interpretation
                                                                           interpretation permitted hospitals
                                                                                                      hospitals to
claim,  as bad
claim, as  bad debts,
                debts, accounts
                        accounts subsequent
                                   subsequent to          placed with aa collection
                                                 to being placed         collection agency.
                                                                                     agency. As
                                                                                              As a result,
                                                                                                    result, CMe's
                                                                                                            CMe's
policies
policies and
          and procedures
              procedures were consistent with the Medicare
                                                       Medicare contractor's
                                                                  contractor's guidance
                                                                                guidance and
                                                                                          and audit
                                                                                              audit instructions.
                                                                                                     instructions.
We estimate
We   estimate that
                that CMC
                      CMC claimed       1,072 such
                             claimed 1,072     such bad
                                                     bad debts representing
                                                                 rep resenting $1,003,043
                                                                                $1,003,043 inin bad
                                                                                                 bad debts, andand
received  $702,130   in related  reimbursement."
received $702,130 in related reimbursement."

The
The OIG
    OIG recommendations
         recommendations are
                         are included below:

    •. Request
         Request its itsfiscal
                         fiscal intermediary
                                 intermediary reopen
                                               reopen its     2005 cost
                                                        its 2005    cost report
                                                                          reporttotoreduce
                                                                                      reduceMedicare
                                                                                              Medicare bad
                                                                                                         bad debts
                                                                                                              debts by
                                                                                                                    by
         $29,295    and    refund  $20,507 in related  overpayments,
         $29,295 and refund $20,507 in related overpayments,
    •. Request
         Request itsitsfiscal
                          fiscal intermediary
                                 intermediary reopen
                                               reopen itsits 2005   hospital cost
                                                              2005 hospital    cost report
                                                                                     reporttotoreduce
                                                                                                 reduce Medicare
                                                                                                         Medicare bad
                                                                                                                   bad
         debts by
                by $650 for  for unreported recoveries and refund $455 in related overpayments.
    •. Review
         Reviewits itspreviously
                        previously submitted
                                    submitted FY2008    cost report
                                               FY2008 cost     report and
                                                                       and ensure
                                                                           ensure compliance
                                                                                    compliance with
                                                                                                 with CMS's
                                                                                                       CMS's bad
                                                                                                              bad debt
                                                                                                                  debt
         policy,
    •. Ensure
         Ensure   thatcost
               that      costreports
                               reportssubmitted
                                       submittedinin the
                                                     the future
                                                           future comply   wit h CMS's
                                                                  comply with    CMS'sbad
                                                                                        baddebt
                                                                                             debtpolicy,
                                                                                                   policy, and
                                                                                                           and
                                                                                                             Page 3 of 3




    •. Improve
         Improveitsits
                     policies
                       policiesand
                                 andprocedures
                                      procedures to
                                                  toensure
                                                     ensure that
                                                             that ititproperly
                                                                       properlyaccounts
                                                                                accounts for
                                                                                         for and
                                                                                              and reports
                                                                                                   reports all
                                                                                                           all
         Medicare
         Medicare   bad  debt  recoveries.

CMe's responses
      responses to
                to these
                   these recommendations are enclosed:
                         recommendations are enclosed:

    •. TheThe  fiscalintermediary
            fiscal    intermediaryhas  hasinitiated
                                            initiated the
                                                      the re-opening
                                                            re-openingprocess
                                                                          processrelated
                                                                                    related to
                                                                                             to the
                                                                                                the 2005
                                                                                                     2005 cost
                                                                                                           cost report.
                                                                                                                report.
    •. WeWe have reviewed our previously submitted FY2008 cost
               have   reviewed     our  previously    submitted     FY2008     cost  report  and confirmed that the bad
                                                                                             and   confirmed   that      bad
          debts claimed do not  not include
                                     include any
                                               any accounts
                                                    accounts still atat aa collection
                                                                           collection agency.
                                                                                        agency. This practice is compliant
          with CMS's bad debtdebtpolicy.
                                    policy.
    •. Current
          Current CHSCHS  policyprohibits
                       policy     prohibitsclaiming
                                              claiming any
                                                        any account
                                                              accountplaced
                                                                         placedwith
                                                                                  with aa collection
                                                                                          collection agency
                                                                                                      agency as
                                                                                                              as aa Medicare
                                                                                                                    Medicare
          bad
          bad debt. We have included these accounts as          as aa protested
                                                                      protested item.
    •. We Wehave
               have reviewed
                       reviewedour ourpolicies
                                        policiesandandprocedures
                                                        proceduresrelated
                                                                        relatedtotoMedicare
                                                                                      Medicarebad baddebt
                                                                                                       debtrecoveries.
                                                                                                             recoveries. As
                                                                                                                          As
          noted    above, the
          noted above,     the OIG
                                 OIG auditors
                                       auditors found
                                                   found 1111 errors
                                                               errors outout of
                                                                              of about
                                                                                  about 19,000
                                                                                          19,000 payments    received from
                                                                                                  payments received     from
          collection
          collection agencies.
                        agencies. This
                                    Thisrepresents        .06% error
                                          represents aa .06%     error rate. As As a result, we
                                                                                              we believe
                                                                                                  believe our
                                                                                                           our policies
                                                                                                                policies and
                                                                                                                         and
          procedures are
          procedures          adequate to
                         are adequate          ensure bad
                                           to ensure    bad debt recoveries
                                                                    recoveries are                  and offset
                                                                                   are identified and    offset against
                                                                                                                 against bad
                                                                                                                         bad
          debts.

Carolinas
Carolinas HealthCare
            HealthCare System
                         System isis dedicated
                                     dedicated to to maintaining
                                                      maintaining accurate
                                                                    accurate cost
                                                                               cost reports.
                                                                                     reports. Our    Corporate
                                                                                               Our Corporate
ComplianceProgram
Compliance     Programhas hassystems
                              systemsininplace
                                          placetoto monitor
                                                      monitor compliance
                                                               compliancewith withregulations.
                                                                                   regulations. If
                                                                                                 If errors
                                                                                                    errors are
          internally or identified
detected internally     identified by an external organization,
                                                    organization, we
                                                                   we are committed
                                                                           committed to resolving
                                                                                          resolving the errors
and refunding
and              any associated
     refunding any   associated overpayments.
                                  overpayments. In  In each of the
                                                                the situations
                                                                     situations described
                                                                                 described above,
                                                                                           above, steps
                                                                                                    steps have
                                                                                                          have
already been
already  been taken
               taken to completely
                          completely resolve   the issue
                                      resolve the   issue and prevent
                                                               prevent future
                                                                         future occurrences
                                                                                 occurrences of these errors.
                                                                                                        errors.
Carolinas HealthCare
Carolinas  HealthCare System   appreciatesthe
                      System appreciates    the opportunity
                                                opportunitytoto remediate
                                                                 remediatethese
                                                                             theseunintentional
                                                                                   unintentionalerrors.
                                                                                                 errors.

Thank you
Thank  you for
            for the
                 the opportunity  to respond.
                     opportunity to           Please feel
                                     respond. Please  feel free
                                                            free to
                                                                 to contact
                                                                    contact me
                                                                            me if
                                                                                if you
                                                                                   you have
                                                                                       have any
                                                                                            any further
                                                                                                further
questions.

Sincerely,




9-
James Ramsey
 Vice President, Financial
 Vice President, Financial Services
                           Services
